                              Department of the Interior 
                              Office of Inspector General 
                                                          
                                                                   
                                                                   
                                                                   

          AUDIT REPORT 


               U.S. Fish and Wildlife Service 
             Federal Assistance Program Grants  
                       Awarded to the  
           Commonwealth of Pennsylvania Game 
           Commission From July 1, 2002, Through  
                        June 30, 2004 
                               




Report No. R‐GR‐FWS‐0008‐2005                         May 2007 
                United States Department of the Interior
                        OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191
                                                                                   May 31, 2007

                                   AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Director of External Audits

Subject:   Audit on the U.S. Fish and Wildlife Service Federal Assistance Program Grants
           Awarded to the Commonwealth of Pennsylvania Game Commission From
           July 1, 2002, Through June 30, 2004 (No. R-GR-FWS-0008-2005)

       This report presents the results of our audit of costs incurred by the Commonwealth of
Pennsylvania (Commonwealth) Game Commission (Commission) under grants awarded by the
U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the Commonwealth under
the Federal Assistance Program for State Wildlife Restoration and Sport Fish Restoration
(Federal Assistance Program). The audit included total reported outlays of approximately $26.3
million under ten grants that were open during the Commonwealth’s fiscal years (CFYs) ended
June 30 of 2003 and 2004 (see Appendix 1). The audit also covered Commission compliance
with applicable laws, regulations, and FWS guidelines, including those related to the collection
and use of hunting and fishing license revenues and the reporting of program income.

       We found the Commission complied, in general, with applicable grant accounting and
regulatory requirements. We questioned $1.76 million in costs and identified issues related to
1) inadequate controls over real property; 2) incomplete inventories and inadequate controls over
personal property; and 3) inaccurate reporting of program income.

     We provided a draft of the report to FWS and the Department for response. This report
summarizes Department and FWS Region 5 responses after each recommendation, as well as our
comments on the responses. We list the status of the recommendations in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
August 29, 2007. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact Mr. Chris Krasowski, the
Federal Assistance Coordinator, or me at 703–487–5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service
                                               Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to states to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. The Acts
also require that hunting and fishing license revenues be used only for the administration of the
State’s fish and game agencies. Finally, federal regulations and FWS guidance require states to
account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine whether the Commission:

      •    claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting license revenues solely for wildlife program activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $26.3 million on ten FWS grants that were
open during CFYs 2003 and 2004 (see Appendix 1). We performed our audit at the
Pennsylvania Game Commission headquarters in Harrisburg, PA, and visited 4 regional offices,
1 wildlife management area, 1 nursery, 2 public access program projects, and 13 game lands (see
Appendix 2). We performed this audit to supplement, not replace, the audits required by the
Single Audit Act Amendment of 1996 and by Office of Management and Budget Circular A-
133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and conducted other auditing
procedures as necessary under the circumstances. Our tests included:




1
    As amended 16 U.S.C. §§ 669 and 777, respectively.
                                                         2
   •   examining the evidence that supports selected expenditures charged to the grants by the
       Commission;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Commission employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Commission used hunting license revenues solely for wildlife
       program purposes; and

   •   determining whether the State passed required legislation assenting to the provision of the
       Acts.

To the extent possible, we relied on the work of the Commonwealth of Pennsylvania Office of
the Budget, Comptroller Operations and the Legislative Budget and Finance Committee (LBFC).
Relying on the LBFC’s relevant audit work helped us to avoid duplication of audit effort.

We also identified the internal controls over transactions recorded in the labor accounting system
and tested the operation and reliability of those controls. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of tests to the
total population of recorded transactions or evaluate the economy, efficiency, or effectiveness of
the Commission’s operations.

Prior Audit Coverage
On December 20, 2002, we issued “Advisory Report on Costs Claimed by the Commonwealth of
Pennsylvania Game Commission, Under Federal Aid Grants from the U.S. Fish and Wildlife
Service from July 1, 1996 through June 30, 1998” (Report No. 2003-E-0006). The
Commonwealth Office of the Budget, Comptroller Operations, issued a single audit report on the
Commonwealth for CFY2003, and the LBFC issued an audit of the Game Commission’s
Strategic Plan for CFY2002.

Our December 2002 report did not contain any recommendations and, accordingly, no followup
was required. The Office of the Budget single audit report for CFY2003 disclosed that the
Commission’s Wildlife Restoration Program was not considered a major program, and none of
the reported findings directly impacted the Commission’s Federal Assistance Program grants.
The Commonwealth’s single audit for CFY2004 was due by March 30, 2005. However, due to
problems in the implementation of a new Commonwealth-wide accounting system, the single
audit report was not available during our audit. The LBFC audit report of the Game
Commission’s Strategic Plan for CFY2002 disclosed control weaknesses related to improvement
of compliance with strategic objectives. We determined none of the weaknesses reported in
either reports impacted Federal Assistance Program grants.

                                                3
                                      Results of Audit

Audit Summary
We found that the Commission complied, in general, with selected grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we discovered several
conditions that resulted in the findings listed below, including questioned costs of $1.76 million.
We discuss these findings in more detail in the Findings and Recommendations section.

       Questioned Costs. The Commission claimed $1.76 million in indirect costs based on a
       28.4 percent rate from CFY2001, rather than on a rate for CFYs 2003 and 2004.

       Improper Use of Property Purchased with Federal Assistance Program Funds. The
       Commission (1) used lands acquired with Federal Assistance Program funds for radio
       tower sites; (2) closed two shooting ranges to the general public; (3) allowed
       snowmobiles on game lands; and (4) allowed use of lands for a university weather
       station.

       Incomplete Personal Property Inventories. The Commission’s equipment inventories
       omitted 32 firearms and inventories were not current.

       Inaccurate Reporting of Program Income. The Commission submitted financial status
       reports that incorrectly reported program income.

Findings and Recommendations

A.     Questioned Costs: Indirect Costs — $1.76 million

       The Commission claimed indirect costs of $1.76 million for CFYs 2003 and 2004 based
       on its CFY2001 indirect cost rate of 28.4 percent because the State Comptroller’s Office
       had not submitted indirect cost proposals for CFYs 2003 and 2004 and, therefore, did not
       have approved rates for those years. The Commission must have a rate approved for each
       year it claims indirect costs.

       OMB Circular A-87, attachment E, item D(1)(a) (recently codified in the Code of Federal
       Regulations, 2 C.F.R. 225) requires all departments or agencies of a governmental unit
       planning to claim indirect costs under federal awards to prepare an indirect cost rate
       proposal and related documentation to support those costs. Attachment A, item H(2) of
       the Circular requires that “no cost allocation plan or indirect cost rate shall be approved
       by the Federal Government unless the plan or rate proposed has been certified.”

       According to Commission officials, a new indirect cost rate had not been obtained
       because the Pennsylvania Comptroller’s Office did not have staff available to prepare and
       submit the proposal. We are therefore questioning indirect costs of $1.76 million (federal
       share) for CFYs 2003 and 2004.

                                                 4
The table below shows indirect costs charged to the grants open during the audit period.

                                                         Indirect        Indirect
     Grant                                                 Cost           Costs
     Period    Grant Number           Salary Base       Rate Used        Charged
                                                       28.4 Percent
      2003          WR-1-C-2                 $652,229      $185,233         $72,756
      2003          WR-1-2Q          (included in C-2)
      2004          WR-1-C-3                  645,191       183,234          94,823
      2003          W-73-T-2                  379,981       107,915          80,936
      2004          W-73-T-3                  371,117       105,397          79,048
      2003          W-74-D-2                3,590,210     1,019,620          92,969
      2004          W-74-D-3                2,935,414       833,658         527,591
      2003          W-75-D-2                3,889,921     1,104,738         157,976
      2004          W-75-D-3                3,907,428     1,109,710         651,504
      2003          W-76-E-2                  474,907       134,874               0
      2004          W-76-E-3                  962,971       273,484               0
                                          $17,809,369 $5,057,863         $1,757,603

Recommendations

We recommend that FWS:

1.     resolve the unsupported indirect costs of $1.76 million (federal share) and

2.     ensure the Commission establishes procedures to prepare and submit indirect cost
       proposals if it intends to claim indirect costs under Federal Assistance Program
       grants and a policy to prevent charging of indirect costs if an approved indirect
       cost rate has not been obtained.

Commission Response

Commission officials concurred with the audit recommendations. They stated they
submitted the indirect cost proposals for the missing years to the Department of Interior
for approval. They received approval of outstanding rates on October 17, 2005. The next
rate proposal is not due until January 2, 2009. Additionally, officials indicated the
Commission and the Governor's Budget Office, Comptroller Operations, have established
procedures that address recommendation two. The procedures help to ensure timely
submission of the indirect cost proposals and receipt of an approved indirect cost rate.
The Commission will not request reimbursement for indirect costs without an approved
rate. Commission officials submitted all required documentation to the Region Five
FWS Office, including amended Financial Status Reports for affected grants.

FWS Response

FWS officials agreed with the recommendations and stated that they have verified that
the Commission has since received an indirect cost rate for the audit years in question.

                                         5
     OIG Comments

     Since we completed our audit fieldwork, the Commission obtained an approved indirect
     cost rate for the years in question. We calculated the allowable indirect charges to the
     CFYs 2003 and 2004 grants based on the rate the Commission obtained in October 2005.
     We determined the indirect costs the Commission claimed were less than total eligible
     indirect costs. Therefore, we believe the Commission has adequately addressed audit
     recommendation one. We will consider recommendation one resolved and implemented
     once FWS HQ officials document in the corrective action plan that they reviewed and
     approved of the actions taken. The corrective action plan should contain the procedures
     developed to ensure timely submission of indirect cost rate proposals and verification that
     FWS headquarters officials reviewed and approved of the actions taken.

B.   Improper Use of Property Purchased with Federal Assistance Program Funds

     States may use Federal Assistance Program funds to provide habitats for and increase
     populations of sport fish and wildlife, and to create public opportunities for use of these
     resources. States may, for example, purchase lands for the benefit of sport fish and
     wildlife and for public use of these resources. The State must, however, maintain control
     of such lands and ensure they serve the purposes for which they were acquired. The
     Commonwealth used Federal Assistance Program funds to purchase game lands, but did
     not adequately ensure they were used for Federal Assistance Program purposes.

     The Commission maintains extensive land records that identify lands purchased with
     federal funds. While such records can help ensure the lands are used appropriately, the
     examples listed below indicate that the Commission lacks adequate controls to ensure the
     lands are used only for fish and wildlife habitat and resources. We found that:

     •      The Commonwealth planned to build five radio project towers on lands purchased
            with Federal Assistance Program funds.

     •      The Commission did not allow public access to a shooting range on Game Land
            No. 91 range, which was acquired with Federal Assistance Program Funds. This
            land was being used primarily by local, Commonwealth, and federal law
            enforcement staff, rather than being available for general public use. Time spent
            by these groups totaled more than 95 percent of the 6-month period July to
            September 2003 and from April to June 2004. The balance of usage was by
            Commission personnel. A Commission official stated that the range was provided
            as a service to other law enforcement agencies.

     •      Commission officials were unaware that Pennsylvania State University had
            constructed and was using a weather station on Commonwealth Game Land No.
            176. The weather station site is approximately 2-4 fenced acres. An access road,
            small shed, trailer, power lines, and many scientific devices are on the parcel.
            Commission records show that land was originally leased to the University in
            1946 but that the lease had not been renewed since 1990.

                                              6
The Commission may, under Sections 722(b) and 725 of the Game Commission Code,
issue permits or licenses for use of its lands for a reasonable fee, when it is in the interest
of the Commission. However, Section 741(b) of the Code requires the Commission to
promulgate regulations to protect users, improvements, lands, and buildings under its
control. Federal regulations also apply. Under 50 C.F.R. § 80.5, eligible uses of Federal
Assistance Program funding include restoring, conserving, and enhancing wildlife, and
providing for public use of those resources. Title 50 C.F.R. § 80.14(b) requires real
property to serve the purpose for which acquired, and further requires that when the state
fish and wildlife agency loses control of the property, it must be replaced using non-
federal assistance funds.

Without adequate controls, the Commission cannot ensure lands were used for eligible
purposes.

Recommendations

We recommend that FWS work with the Commission to:

1.      determine whether the use of land and property for (a) radio tower sites, (b) law
        enforcement organizations, and (c) the weather station were eligible uses and, if
        not, take appropriate corrective actions;

2.      determine whether other land acquired with Federal Assistance Program funds is
        being used for eligible purposes;

3.      establish and implement policies and procedures to prevent the misuse of lands
        acquired with Federal Assistance Program funds; and

4.      establish policies and procedures to ensure FWS approval is obtained when the
        uses of lands acquired with Federal Assistance Program funds change.

Commission Response

Commission officials concurred with the audit recommendations and stated:

     • the shooting ranges will be open for public use;

     • a letter will be sent to the Pennsylvania State University requiring removal of the
       weather station facility from the game lands and reclamation of the site;

     • a Standard Operating Procedure (SOP) will be implemented to ensure uses of
       State Game Land properties are consistent with Federal requirements; and

     • an SOP will be established that outlines allowable uses on lands acquired with
       Federal Assistance Program funds and contains procedures to ensure approval
       from FWS has been granted for intended uses of the lands.


                                           7
     FWS Response

     FWS officials agreed with the recommendations and stated they will work closely with
     the Commission on the development of a corrective action plan to resolve and implement
     all of the recommendations in a timely manner.

     OIG Comments

     While FWS management concurs with the recommendations and the Department
     indicated it is taking action to address them, additional information is needed in the
     corrective action plan. The plan should contain documentation on the proposed or
     completed actions (including proposed or final procedures), targeted completion date(s),
     title(s) of the official(s) responsible for implementation, and verification that FWS
     headquarters officials reviewed and approved of the actions taken.

C.   Incomplete Personal Property Inventories

     We found that the Commission had not complied with existing procedures for the
     management of equipment. We identified 27 20-gauge shotguns at the North Central
     Regional Office and 5 muzzleloader rifles at the Northeast Regional Office that were not
     on equipment inventories.

     Under 50 C.F.R. § 80.19, States must maintain current and complete property records in
     accordance with requirements in the FWS Manual. In addition, Commission
     Administrative Directive No. 10.1A (September 13, 1999) requires all electronic,
     motorized, and audio/visual items, all firearms, and all other items worth $500 or more to
     be maintained in the inventory system. State of Pennsylvania Management Directive
     310.14, “Fixed Asset Accounting and Reporting,” also contains requirements for
     ensuring control over the Commonwealth’s assets. Under this directive, heads of State
     agencies are responsible for establishing procedures and controls for implementing and
     monitoring assets, assigning responsibilities for accounting for the assets, and
     implementing adequate procedures and controls to safeguard and physically account for
     fixed assets.

     Based on our site visits and discussions with Commission personnel, we concluded that
     the requirements of Directive 310.14 are not being followed consistently. Without
     adequate controls over property, the Commission cannot ensure accountability for its
     fixed assets.

     Recommendations

     We recommend that FWS work with the Commission to:

     1. ensure that policy and procedures on equipment inventories are implemented
        consistently among the regions,



                                              8
     2. ensure all equipment inventories are up to date based upon physical inventories, and

     3. update the North Central and Northeast inventories to include the omitted firearms.

     Commission Response

     Commission officials concurred with the audit recommendations. They stated:

         • Staff from the Bureau of Administrative Services will review existing inventory
           procedures and will propose potential revisions. These revisions will strengthen
           compliance with existing procedures.

         • Compliance with the inventory procedures will be addressed with senior staff in
           the bureaus within headquarters and in the regional offices.

         • They will monitor inventory more closely to ensure all inventory is up-to-date
           and procedures are being followed.

         • They will advise the Northcentral and Northeast Regional Offices to update their
           current inventory to include firearms that were omitted from inventory during the
           audit review.

     FWS Response

     FWS officials agreed with the recommendations and stated they will work closely with
     the Commission on the development of a corrective action plan to resolve and implement
     all of the recommendations in a timely manner.

     OIG Comments

     While FWS management concurs with the recommendations and the Department
     indicated it is taking action to address them, additional information is needed in the
     corrective action plan. The plan should contain documentation on the proposed or
     completed actions (including on the proposed or final procedures and on the status of the
     recommended updates to inventories), (targeted) completion date(s), title(s) of the official(s)
     responsible for implementation, and verification that FWS headquarters officials reviewed
     and approved of the actions taken.

D.   Inaccurate Reporting of Program Income

     The Commission utilizes the Commonwealth Comptroller’s Office, Federal Accounting
     Division, to draw down federal funds, report its expenditures, and maintain adequate
     documentation. We found that the Comptroller’s Office improperly reported program
     income on six grants. The errors led to no negative monetary impact on the FWS.
     However, misreported program income can impact the reimbursable federal share under
     the grants, and accurate reporting is therefore necessary.


                                                9
Under 43 C.F.R. § 12.65, program income ordinarily will be deducted from total
allowable costs to determine the net allowable costs (deductive method). The awarding
federal agency may authorize the grantee to use another alternative, such as the additive
method. The additive method allows a grantee to add program income to the project
funds to further implement eligible program projects.

The six grants in question included the Operations and Maintenance Grants W-74-D-2
and W-74-D-3; Habitat Management Grants W-75-D-2 and W-75-D-3; and Hunter
Education Grants W-76-E-2 and W-76-E-3. The grant agreements for these grants
specified use of the additive method, but the Commission reported program income using
the deductive method. Additionally, the Commission reported program income of
$554,160 on Habitat Management Grant W-75-D-3 when the correct amount was
$340,622. We did not identify the associated costs with any of the six grants because
there was no negative monetary impact on the FWS.

A Comptroller Operations office official stated that the errors on the financial status
reports were due to administrative errors.

Recommendation

FWS should work with the Commission to establish procedures to ensure the
Commission reports program income on the financial status reports using the method
specified in the grant agreement.

Commission Response

Commission officials concurred with the audit recommendation. They stated they met
with Governor's Budget Office, Comptroller Operations to discuss the procedures for
submitting financial status reports. They further stated that prior to our audit,
Comptroller Operation’s staff completed and submitted the financial status reports. They
stated the Commission’s Federal Assistance Coordinator now has responsibility for this
process. They moved the responsibility to the Coordinator to ensure information on the
program is reported properly. They said that once completed by Commission staff,
reports are submitted to FWS with copies to their staff and Comptroller operations.

FWS Response

FWS officials agreed with the recommendation and stated it will work closely with the
Commission on the development of a corrective action plan to resolve and implement all
of the recommendation in a timely manner.

OIG Comments

While FWS management concurs with the recommendation and the Department indicated
it has taken action to address them, additional information is needed in the corrective
action plan. The plan should contain documentation on the proposed or final procedures,
(targeted) completion date(s), title(s) of the official(s) responsible for implementation, and
verification that FWS headquarters officials reviewed and approved of the actions taken.
                                             10
                                                                                                      Appendix 1


                         PENNSYLVANIA GAME COMMISSION
                     FINANCIAL SUMMARY OF REVIEW COVERAGE
                           JULY 1, 2002, THROUGH JUNE 30, 2004


                                                                               Questioned
                       Grant               Grant           Claimed          Unsupported Costs
                      Number              Amount            Costs 1           (Federal Share)
                 WR-1-C-2                $1,175,000            $892,885                     $72,756
                 WR-1-C-3                 1,220,000             852,313                      94,823
                 W-73-T-2                    600,000            561,421                      80,936
                 W-73-T-3                    600,000            511,996                      79,048
                 W-74-D-2                 4,000,000         5,107,634                        92,969
                 W-74-D-3                 4,350,000         4,154,635                       527,591
                 W-75-D-2                 6,200,000         5,960,769                       157,976
                 W-75-D-3                 6,500,000         5,903,825                       651,504
                 W-76-E-2                    784,767        1,064,508
                 W-76-E-3                    839,080        1,279,173
                                        $26,268,847 $26,289,131                       $1,757,603




1
    Amounts recorded by the Department during the audit period, including indirect costs.


                                                          11
                                         Appendix 2


PENNSYLVANIA GAME COMMISSION
        SITES VISITED

            Regional Offices
         South West – Ligonier
       North Central – Jersey Shore
           North East – Dallas
          South East – Reading

       Wildlife Management Area
  Middle Creek WMA – South East Region

              Nursery
      Howard Nursery, Howard, PA

     Public Access Program Projects
   Project No. 008 – South West Region
   Project No. 136 – South West Region

           State Game Lands
          South West Region
          No. 42
          No. 79
          No. 108
          No. 184

          North Central Region
          No. 33
          No. 176

          North East Region
          No. 13
          No. 57
          No. 66
          No. 91
          No. 187

          South Central Region
          No. 230
          No. 290




                   12
                                                                                 APPENDIX 3


                PENNSYLVANIA GAME COMMISSION
         STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


     Recommendations                         Status                    Action Required
A.1, A.2,,B.1, B.2, B.3, B.4,   FWS management concurs          Additional information is
C.1, C.2, C.3, D                with the recommendations, but   needed in the corrective action
                                additional information is       plan, including the actions
                                needed as outlined in the       taken or planned to implement
                                “Actions required” column.      the recommendations, targeted
                                                                completion date(s), the title of
                                                                official(s) responsible for
                                                                implementation, and
                                                                verification that FWS officials
                                                                reviewed and approved of
                                                                actions taken or planned by
                                                                the state. We will refer
                                                                recommendations not resolved
                                                                and/or implemented at the end
                                                                of 90 days (after August 29,
                                                                2007) to the Assistant
                                                                Secretary for Policy,
                                                                Management and Budget for
                                                                resolution and/or tracking of
                                                                implementation.




                                             13
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
